               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Contracting of Real Estate
             Management Services

                       Audit Report




                                              June 12, 2013

Report Number SM-AR-13-001
                                                                             June 12, 2013

                                                             Contracting of Real Estate
                                                                Management Services

                                                          Report Number SM-AR-13-001


BACKGROUND:                                   negotiated. Further, the contractor acts
In June 2011, the U.S. Postal Service         on behalf of the Postal Service in
awarded a contract to CB Richard Ellis,       negotiating leases and the contractor
Inc. to be the sole provider of real estate   can also represent the lessor. The
management services to more                   Postal Service established a targeted
effectively use its limited resources.        incentive for reduced lease rates but in
Outsourcing real estate management            the first year of the contract did not meet
services to one supplier is a                 the target. In addition, Facilities officials
fundamental change from how the               did not establish a maximum contract
Postal Service previously managed its         amount, which poses the risk of
real estate portfolio. Our objectives were    escalating contract costs. Officials
to assess the inherent risks of the           increased contract funding from
contract and determine whether the            $2 million to $6 million and, as of
Postal Service effectively provided           February 2013, contract payments
oversight to reduce these risks.              exceeded $3 million.

WHAT THE OIG FOUND:                           Lastly, in fiscal year 2012, employees
Postal Service Facilities officials should    not appointed contracting officer’s
improve oversight to mitigate inherent        representatives certified $1.7 million for
risks associated with the CB Richard          invoices, including $1.1 million for
Ellis contract. Specifically, there are       services requested and certified by the
conflict of interest concerns and no          same individual, which presents an
maximum contract value. In addition, the      increased risk of fraud. Ineffective
contracting officer did not properly          contract oversight poses an increased
approve contract payments, appoint            risk to the Postal Service’s finances,
contracting officer's representatives to      brand, and reputation.
monitor contract performance, or ensure
services were provided. As a result, it is    WHAT THE OIG RECOMMENDED:
difficult for the Postal Service to           We recommended management
determine whether the outsourcing effort      establish a reasonable maximum
has been or will be effective in reducing     contract value based on historical
costs.                                        budgets, designate contracting officer's
                                              representatives, and specify their duties
Conflict of interest concerns exist           to monitor contract performance and
because the contractor provides a range       approve payments.
of property values to negotiate a lease
and receives a commission from the            Link to review the entire report
lessor based on the property value
June 12, 2013

MEMORANDUM FOR:           TOM A. SAMRA
                          VICE PRESIDENT, FACILITIES




FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Audit Report – Contracting of Real Estate
                          Management Services
                          (Report Number SM-AR-13-001)

This report presents the results of our audit of Contracting of Real Estate Management
Services (Project Number 12YG018DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have
any questions or need additional information, please contact Monique P. Colter,
director, Supply Management and Facilities, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Susan M. Brownell
    Albert J. Novack
    Jane E. Bjork
    Corporate Audit and Response Management
Contracting of Real Estate Management Services                                                                     SM-AR-13-001




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Inherent Contract Risks ................................................................................................... 2

Conflict of Interest ........................................................................................................... 2

Maximum Contract Amount ............................................................................................. 2

Contract Payments .......................................................................................................... 2

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objectives, Scope, and Methodology .......................................................................... 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Monetary and Other Impact ........................................................................ 8

Appendix C: Management's Comments .......................................................................... 9
Contracting of Real Estate Management Services                                                     SM-AR-13-001




Introduction

This report presents the results of our audit of the U.S. Postal Service’s Contracting of
Real Estate Management Services (Project Number 12YG018DA000). This self-initiated
audit addresses financial risk. Our objectives were to assess inherent risks of the
contract and determine whether the Postal Service effectively provided oversight to
reduce these risks. See Appendix A for additional information about this audit.

In June 2011, the Postal Service awarded a contract to CB Richard Ellis, Inc. (CBRE) to
be the sole provider of real estate management services. The Postal Service believed
that leveraging the capabilities of a national real estate firm would allow for a more
effective use of limited resources.

Conclusion

Postal Service Facilities officials should improve oversight to mitigate the inherent risks
associated with the CBRE contract. Specifically, there are conflict of interest concerns
and a maximum contract value was not established. In addition, contract payments
were not properly approved. The contracting officer (CO) did not appoint contracting
officer’s representatives (COR) to monitor contract performance and ensure services
were provided. As a result, it is difficult for the Postal Service to determine whether the
outsourcing effort has been or will be effective in reducing costs.

Conflict of interest concerns exist because the contractor provides a range of property
values to negotiate a lease and then receives a commission from the lessor based on
the property value negotiated. Further, the Postal Service pays the contractor to act on
its behalf in negotiating leases and the contractor can also represent the lessor. The
Postal Service established a targeted incentive for reduced lease rates; however, in the
first year of the contract, the agency did not meet this target.

In addition, Facilities officials did not establish a maximum amount for this contract,
which poses the risk of escalating contract costs. For example, Facilities officials
increased contract funding from $2 million to $6 million. As of February 2013, contract
payments exceeded $3 million.1

Lastly, in fiscal year (FY) 2012, employees who were not appointed CORs certified
$1.7 million for invoices, including $1.1 million for services requested and certified by
the same individual, which presents an increased risk of fraud. Ineffective contract
oversight poses an increased risk to the Postal Service’s finances, brand, and
reputation.



1
 Overall contract costs for real estate management services have declined from prior years because fewer
contractors are being used for facilities management services.
                                                          1
Contracting of Real Estate Management Services                                                         SM-AR-13-001



Inherent Contract Risks

Postal Service officials should improve contract oversight to mitigate inherent risks
associated with this contract. Specifically, there are conflict of interest concerns and a
maximum contract value was not established at the time the contract was awarded. As
a result, it is difficult for the Postal Service to determine whether the outsourcing effort
has been or will be effective in reducing portfolio costs.

Conflict of Interest

Conflict of interest concerns exist because the contractor provides a range of property
values2 to negotiate the lease and then receives a commission from the lessor based on
the property value negotiated. Further, the Postal Service pays the contractor to act on
its behalf in negotiating leases, and the contractor can also represent the lessor.3 These
conflicts of interest give the appearance of impropriety because if the lessor establishes
a higher rent, the contractor will receive a higher commission. The Postal Service
established a targeted incentive for reduced lease rates. However, in the first year of the
contract, CBRE failed to meet this operational performance target. If not adequately
monitored, these risks could negatively impact the overall costs of the Postal Service’s
real estate portfolio.

Maximum Contract Amount

A maximum contract value was not established at the time the contract was awarded.
Facilities officials believed a maximum contract amount was unnecessary because real
estate expenses would have occurred anyway during normal Facilities operations.
Under Postal Service policy,4 Postal Service officials should have established the final
contract price by applying a formula based on the relationship between the total final
negotiated cost and total target cost. The contract was initially funded for $2 million and
has since been increased to $6 million. Actual contract payments exceed $3 million.
Without establishing a maximum contract value the Postal Service is at risk of
escalating uncontrolled future contract costs.

Contract Payments

Facilities officials must improve internal controls over the certification of payments for
services rendered by the real estate contractor. Specifically, of 239 CBRE invoices
reviewed for FY 2012 (valued at $1.9 million), we identified 227 invoices totaling
$1.7 million in which the Facilities employee approving the invoice was not the CO or an



2
   According to Facilities officials, the contractor bases its property values on actual market data from a variety of
commercial property resources. These values are used to estimate market value ranges in cases where a third-party
appraisal is not warranted.
3
  .This type of commercially acceptable real estate transaction, called dual agency, occurs when the listing broker
represents both the seller and the buyer.
4
   Supplying Principles and Practices, Section 2-18.4.


                                                          2
Contracting of Real Estate Management Services                                         SM-AR-13-001



appointed COR. Of the 227 invoices, we identified 124 totaling $1.1 million approved
and certified by the same Facilities employee who requested the work order (see
Figure 1).

                      Figure 1. Analysis of CBRE Invoice Payments




       Source: Postal Service Electronic Data Warehouse (EDW) payments to suppliers.



Postal Service officials did not effectively provide oversight to mitigate inherent contract
risks and ensure contract payments were properly approved because CORs were not
appointed to monitor contract performance and ensure services were provided before
payment. Before the CBRE contract, Postal Service employees who had contracting
authority to finalize lease negotiations and property sales were responsible for soliciting
contractors to perform real estate management services for leases and disposals. After
the CBRE contract was awarded, the operating environment within Facilities changed
and CBRE became solely responsible for coordinating and soliciting real estate
management services. In the new environment, employees with contracting authority
who used to perform these duties were uncertain of their new role in working with
CBRE. Further, the CO did not formally designate responsibilities to employees for
monitoring contract performance and approving invoices for payment.

Postal Service officials contend that CORs were not required for this contract because
employees with contracting authority already served in this role and are authorized to


                                                    3
Contracting of Real Estate Management Services                                                       SM-AR-13-001



approve CBRE contract payments. Although these employees were granted contracting
authority for real estate services they did not have formal contracting authority on this
specific contract. Under the CBRE contract, the CO should have appointed CORs. In
the current environment, these employees can request real estate management
services through CBRE and also certify CBRE invoices. In a strong internal control
environment, these duties should be performed by two different individuals.

One of the roles and responsibilities of a CO is to delegate day-to-day management of
contracts to other individuals, specifically a COR. 5 The COR represents the CO in
dealings with the supplier. When CORs are appointed, the CO must prepare a detailed
Letter of Appointment that contains, at a minimum, COR roles and responsibilities,
recordkeeping duties, and delegated contract management duties. Formally appointing
CORs could improve contract oversight, strengthen internal controls by separating
duties, and minimize overall risk to the Postal Service.

We classified the value of the 227 invoices ($1.7 million) in which the Facilities
employee approving the invoice was not the CO or an appointed COR as unsupported
questioned costs. These costs are not considered unreasonable but are questionable
because officials did not follow a significant internal control procedure.

Recommendations

We recommend the vice president, Facilities:

1. Establish a reasonable maximum contract value based on historical budgets.

2. Designate contracting officer's representatives and specify their duties to monitor
   contract performance and approve payments.

Management’s Comments

Management stated in subsequent correspondence that they agreed with our
recommendations but did not agree with our specific findings and monetary impact.
Regarding recommendation 1, management will establish a reasonable maximum
contract value by June 24, 2013. With regard to recommendation 2, management
intends to designate real estate specialists as CORs and the designations will be
completed on or before July 1, 2013. The CORs will be responsible for requesting
services and the negotiations for services and will subsequently certify to the CO that
services were received. The CO will contract for the services and approve the invoice
for payment.

Management stated that outsourcing real estate management services will improve
consistency and facilitate increased focus on overall real estate goals of generating
revenue and reducing expense. Further, they stated that outsourcing real estate
services is a prudent and commercially acceptable business decision not only
5
    Supplying Principles and Practices, Section 3-5, Appoint Contracting Officers Representatives.


                                                            4
Contracting of Real Estate Management Services                               SM-AR-13-001



implemented by the Postal Service but by other government agencies. Management
indicated that conflict of interest concerns have been mitigated by using real estate
specialists to review estimated property values used for negotiations. In cases where
the estimated property value or annual rent exceeds $150,000, the Postal Service
obtains third-party appraisals to establish market value. Finally, management stated that
the contractor has acted on behalf of both the Postal Service and lessors in negotiating
leases only 12 times since the real estate management services contract was awarded.
See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. The OIG supports management's efforts to maximize
the value of the Postal Service's assets and reduce leased portfolio costs. However, as
with any business decision, associated risks should be properly monitored to ensure
efforts will be effective and result in favorable outcomes.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 5
Contracting of Real Estate Management Services                                 SM-AR-13-001




                             Appendix A: Additional Information

Background

The Postal Service’s real estate objectives are to acquire, lease, build, and expand
facilities to support operations. Challenges in the economy, shifts in technology, as well
as other factors have led to a change in the Postal Service’s real estate goals and
objectives. Currently, the Facilities organization is focused on consolidating and
disposing of excess space and vacant properties to optimize operations, generate
revenue, and reduce real estate expenses. In June 2011, the Postal Service awarded a
firm-fixed contract with an award fee to CBRE as its sole provider of real estate
management services. Accordingly, CBRE assumed many of the duties formerly
performed by Postal Service real estate specialists and other real estate contractors.
Since the contract was awarded, the Postal Service has paid more than $3 million to
CBRE for real estate support. This figure represents the initial phase of this contract and
no language in the contract limits future real estate support costs.

CORs are assigned to administer contracts and ensure all contract terms are carried
out. They are ultimately responsible for ensuring the Postal Service has received the
requested goods and services and has been invoiced correctly before rendering
payment. A CO may delegate a portion of his or her responsibility to a COR through a
letter of designation. The COR may be assigned a wide range of responsibilities for
administering contracts, which may include certifying invoices, performing inspections,
and accepting goods and services. In carrying out COR responsibilities, the
representative should be properly trained, appointed, and terminated when appropriate.
It is also important that CO and COR duties be clearly defined to ensure proper
separation of duties.

Objectives, Scope, and Methodology

Our objectives were to assess inherent risks of the contract and determine whether the
Postal Service effectively provided oversight to reduce these risks.

To accomplish our objectives we:

   Analyzed payments made to CBRE from October 2011 through September 2012
    relating to the contracting of real estate management services under Contract
    Number 109480-11-B-0076.

   Interviewed management and staff from Headquarters Facilities and the Great Lakes
    Facilities Service Office to determine the current and former processes
    Postal Service real estate specialists, asset managers, and CBRE staff members
    used when completing lease negotiations and disposal projects.




                                                 6
Contracting of Real Estate Management Services                                  SM-AR-13-001



   Met with employees and representatives from the Association of U.S. Postal Lessors
    to discuss their concerns about the CBRE contract and their experiences when
    negotiating with CBRE.

We conducted this performance audit from February 2012 through June 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on May 2, 2013, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by comparing source
documents to data in the electronic Facilities Management System and the EDW to
validate monetary amounts and the certifying official. We determined that the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objectives of this
audit.




                                                 7
Contracting of Real Estate Management Services                                                         SM-AR-13-001




                              Appendix B: Monetary and Other Impact

                                               Monetary Impact

           Recommendation                       Impact Category                              Amount
                 2                      Unsupported Questioned Costs6                       $1,703,766


                                                  Other Impact

           Recommendation                         Impact Category                           Amount
                 2                                Goodwill/Branding7                         None


We calculated $1.7 million in unsupported questioned costs by identifying the total
number of invoices paid from October 1, 2011 to September 30, 2012 and not certified
by the CO or a COR.




6
  Claimed because of failure to follow policy or required procedures but does not necessarily connote any real
damage to Postal Service.
7
  An actual or potential event or problem that could harm the reputation of the Postal Service.


                                                          8
Contracting of Real Estate Management Services                SM-AR-13-001




                          Appendix C: Management's Comments




                                                 9
Contracting of Real Estate Management Services        SM-AR-13-001




                                                 10
Contracting of Real Estate Management Services        SM-AR-13-001




                                                 11
